             OFFICE OF INSPECTOR GENERAL 




                                    Catalyst for Improving the Environment


Attestation Report




    Association of State and Interstate
    Water Pollution Control
    Administrators Incurred Costs for
    Seven EPA Assistance Agreements
    Report No. 2006-4-00122

    July 31, 2006
Report Contributors:             Keith Reichard
                                 Richard Valliere




Abbreviations

CFR          Code of Federal Regulations
EPA          U.S. Environmental Protection Agency
OIG          Office of Inspector General
OMB          Office of Management and Budget
                       U.S. Environmental Protection Agency                                             2006-4-00122

                                                                                                         July 31, 2006

                       Office of Inspector General


                       At a Glance

                                                                          Catalyst for Improving the Environment


Why We Did This Review           Association of State and Interstate Water
We conducted this                Pollution Control Administrators Incurred
examination to determine         Costs for Seven EPA Assistance Agreements
whether the total costs
incurred for seven U.S.
Environmental Protection          What We Found
Agency (EPA) assistance
agreements were fairly           The Association did not comply with the financial and program management
presented, in all material       standards and the procurement standards promulgated in Title 40 Code of Federal
respects, and the incurred       Regulations (CFR), Subchapter B, Part 30. Specifically, the Association (1) could
costs were allowable in
                                 not provide support for any of its general journal entries; (2) included duplicate
accordance with the terms and
conditions of the agreements     recorded costs in its accounting system; (3) could not always trace grant draws to
and applicable regulations.      the accounting records; (4) could not always support labor charged to the EPA
                                 grants; (5) could not support the recorded indirect costs; (6) did not record all of
Background                       its program income; (7) did not have adequate written procedures for determining
                                 reasonable, allocable, and allowable costs; (8) drew EPA grant funds in excess of
EPA awarded seven assistance     the funds needed; and (9) did not complete the required single audits for fiscal
agreements to the Association    years ended June 30, 2004, and June 30, 2005.
of State and Interstate Water
Pollution Control                The Association’s procurement system did not comply with the procurement
Administrators (Association)     standards. The Association awarded contracts to the America’s Clean Water
to assist States, Tribes, and    Foundation, contrary to the requirements of Title 40 CFR 30.42 and 30.45.
territories in complying with    Because the Association did not adequately document its costs and did not
the Clean Water Act.             comply with the EPA regulations, we questioned $1,883,590 paid to the
                                 Association.

                                  What We Recommend

                                 We recommend that EPA (1) recover $1,883,590 paid unless the Association is
                                 able to reconstruct its accounting records to meet the minimum financial
                                 management standards required in Title 40 CFR 30.21; (2) disallow contract costs
                                 procured in violation of Title 40 CFR 30.42 and 30.45; (3) rescind provisional
                                 indirect cost rates for the fiscal years ended June 30, 2005, and June 30, 2006;
For further information,
                                 (4) stop work on all active grants and do not award any new grants until EPA has
contact our Office of            assurances that the Association meets minimum financial management
Congressional and Public         requirements; (5) keep the Association on the reimbursement payment method
Liaison at (202) 566-2391.       until the Association meets minimum financial management requirements, settles
                                 current Federal liabilities, and repays all disallowed costs; and (6) require the
To view the full report,
click on the following link:     Association to comply with single audit requirements for fiscal years ended
www.epa.gov/oig/reports/2006/    June 30, 2004 and June 30, 2005. The Association stated many improvements
20060731-2006-4-00122.pdf        have already been implemented and will continue to work to implement and
                                 address any remaining concerns.
                  UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                               WASHINGTON, D.C. 20460



                                                                                  OFFICE OF 

                                                                             INSPECTOR GENERAL




                                           July 31, 2006

MEMORANDUM

SUBJECT:       Association of State and Interstate Water Pollution Control Administrators
               Incurred Costs for Seven EPA Assistance Agreements
               Report No. 2006-4-00122

TO:            Richard Kuhlman
               Director, Grants Administration Division


This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the
problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determination on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

On April 13, 2006, we issued a draft report to the Association of State and Interstate Water
Pollution Control Administrators (Association) for comments. The Association responded and
generally agreed with our findings, and outlined numerous corrective actions completed or
underway. The Association’s response and the OIG’s comments are included in Appendix B.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $88,404.

Action Required

In accordance with EPA Manual 2750, Chapter 3, Section 6(f), you are required to provide us
your proposed management decision for resolution of the findings contained in this report before
any formal resolution can be completed with the Association. Your proposed decision is due on
November 28, 2006. To expedite the resolution process, please email an electronic version of
your proposed management decision to reichard.keith@epa.gov.

We have no objections to the further release of this report to the public. For your convenience,
this report will be available at http://www.epa.gov/oig. We want to express our appreciation for
the cooperation and support from your staff during our review. If you have any questions about
this report, please contact Keith Reichard at (312) 886-3045.


                                                     Sincerely,



                                                     Bill A. Roderick
                                                     Acting Inspector General
         Association of State and Interstate Water Pollution Control Administrators Incurred 

                            Costs for Seven EPA Assistance Agreements 



                                    Table of Contents 


Background .............................................................................................................     1


Independent Auditor’s Report................................................................................                 4     


Results of Examination...........................................................................................            6     


Recommendations ..................................................................................................          12 


Status of Recommendations and Potential Monetary Benefits ..........................                                        13 


Schedule 1: Comparison of Grant Payments with Incurred Costs .....................                                          14 




Appendices
A        Scope and Methodology ..............................................................................               15 


B        Recipient Response and OIG Comments ...................................................                            16 


C        Distribution ...................................................................................................   26 

                                            Background

The U.S. Environmental Protection Agency (EPA) awarded seven assistance agreements1
(grants) to the Association of State and Interstate Water Pollution Control Administrators
(Association) totaling $2,020,696. The Association, which is located in Washington, DC, was
formed in 1961, and is a Section 501(c) (3) not-for-profit organization (per Internal Revenue
Code requirements). The following table provides some basic information about the authorized
project periods and funds awarded under each of the seven grants:


         Grant          Award           EPA            EPA           Payment
          No.            Date          Share *       Payments          Date             Project Period
        X82919901     08/09/2001       $125,000        $125,000     07/28/2003     07/01/2001 – 10/01/2003
        X82973401     05/02/2002       $240,000        $171,339     10/12/2005     04/01/2002 – 03/31/2006
      X783105101      06/09/2003       $360,000        $360,000     05/24/2004     05/15/2003 – 05/14/2006
      CP83106901      08/11/2003       $200,000        $200,000     05/05/2004     07/01/2003 – 06/30/2005
      CP83107001      08/18/2003       $440,000        $440,000     05/12/2005     06/01/2003 – 05/30/2006
      X783164601      03/24/2004       $206,892        $206,892     11/15/2004     02/19/2004 – 08/19/2005
      X783173901      09/24/2004       $448,804        $380,359     11/01/2005     05/15/2004 – 05/14/2006
     Total                           $2,020,696      $1,883,590


    * The EPA share for all seven grants was 100 percent of allowable project cost.



All seven grants were awarded under the authority of the Clean Water Act. The scopes of work
for the seven agreements are summarized as follows:

Agreement X82919901: Helped States improve monitoring programs required by the Clean
Water Act for a full range of purposes including (1) improving the accuracy and completeness of
impaired waters lists and comprehensive State water quality assessments reports,
(2) streamlining the reporting requirements, and (3) enhancing public understanding and use of
the reports.

Agreement X82973401: Provided a State/Federal work group to improve water quality
standards development and implementation.

Agreement X783105101: This 3-year grant provided $360,000 for technical support to assist
States, Indian Tribes, and territories in complying with the total maximum daily load


1
 EPA’s assistance to the Association was either a grant or cooperative agreement. For reporting purposes, all
assistance will be referred to as a grant.


                                                         1

requirements. The scope of work is identical to Grant X783173901, listed below, and has an
overlapping project period.

Agreement CP83106901: The purpose of this grant was to improve integrating point and
nonpoint source control problems on a national scale through improved communications and
coordination with State water quality agencies responsible for implementing water quality
monitoring and assessment, and data management requirements.

Agreement CP83107001: Created State work groups for (1) permit program integrity and (2)
prioritization and streamlining. The grant also provided a forum for national pollutant discharge
elimination system managers to conference with EPA to address priority State concerns with
point source-related water quality issues.

Agreement X783164601: Provided planning, support, and facilitation for three regional forums
to create and enhance a multi-agency approach to implement nonpoint source pollution
management measures at the watershed level.

Agreement X783173901: This 2-year grant provided $448,804 for technical support to assist
States, Indian Tribes, and territories in complying with the total maximum daily load
requirements. This grant provided the same services and overlaps the project period for Grant
X783105101 listed above.

Single Audit Activity

On September 12, 2005, our office issued the Association’s single audit report for the year ended
June 30, 2003. Nonfederal entities that expend $300,000 ($500,000 for fiscal years ending after
December 31, 2003) or more in a year in Federal awards are required by Title 40 Code of
Federal Regulations (CFR) 30.26 to have a single audit conducted in accordance with applicable
requirements of the Office of Management and Budget (OMB) Circular A-133. The single audit
report disclosed four findings that pertained to EPA grants:

   1.	 The Association did not have adequate procedures in place to accurately track and record
       grant balances. The auditor required significant adjustments after the end of the fiscal
       year to properly report grant balances.

   2.	 The Association’s books of accounts were not accurately maintained on an accrual basis.
       The auditor required significant adjustments to accrue account balances in accordance
       with generally accepted accounting principles. As a result, the audited financial
       statements reflected results that were significantly different from internal management
       reports.

   3.	 There were discrepancies in the net disbursements reported on the Financial Transaction
       Reports, SF-272, for several grants for the reporting periods ended December 31, 2002,
       and June 30, 2003. Cumulative disbursements reported for the same grants did not
       reconcile with the general ledger for these same periods.




                                                2

   4.	 The Association did not have adequate procedures to ensure that payments to hourly
       employees were correct and adequately supported. Timesheets for several off-site
       employees were not signed by either the employee or a supervisor with knowledge of the
       activities.

The single audit report disclosed that as of June 30, 2003, the Association drew advances from
EPA in excess of expenditures resulting in a payable of $141,289 due EPA.

Subsequent to the completion of the single audit for the fiscal year ended June 30, 2003, the
Association hired Raffa & Associates to complete the Association’s single audit for the year
ended June 30, 2004. However, Raffa & Associates discontinued audit work after identifying
accounting irregularities that might extend back to prior years, including the year ended June 30,
2003. Subsequently, the Association contracted with Raffa & Associates to provide accounting
services and advice. After identifying the accounting irregularities, both the managing partner
for Raffa & Associates and the Association’s Executive Director met with EPA officials to report
the accounting irregularities. On July 18, 2005, after being notified of the accounting
irregularities, EPA temporarily placed the Association on the “reimbursement” method of
payment as authorized by Title 40 CFR 30.14 and 30.22(h)(1). EPA took this action pending
completion of corrective action to comply with Title 40 CFR Part 30.

Consequently, the single audit for the fiscal year ended June 30, 2003, remains unresolved, and
the Association has not completed the single audits for the years ended June 30, 2004, and June
30, 2005.

To assist the reader in obtaining an understanding of the report, key terms are defined below:

       Incurred Costs: 	             Expenses or outlays identified by the Association and
                                     recorded in the Association’s accounting system.

       Questioned Costs: 	           Costs that are (1) contrary to a provision of a law,
                                     regulation, agreement, or other documents governing the
                                     expenditures of funds; or (2) not supported by adequate
                                     documentation.




                                                3

                       Independent Auditor’s Report

We have examined the Schedules of Budgeted & Reported Outlays by Assistance Agreement
prepared by the Association for each of the seven EPA grants: X82919901, X82973401,
X783105101, CP83106901, CP83107001, X783164601, and X783173901. Preparing these
schedules was the Association’s responsibility. Our responsibility is to express an opinion on
these schedules to determine the allowable costs incurred in accordance with the terms and
conditions of the grants and applicable EPA regulations.

We conducted our examination in accordance with the Government Auditing Standards issued by
the Comptroller General of the United States, and the attestation standards established for the
United States by the American Institute of Certified Public Accountants. We also followed the
guidelines and procedures established in the Office of Inspector General Project Management
Handbook, dated January 14, 2005. We examined, on a test basis, evidence supporting the costs
incurred, and performed such other procedures as we considered necessary in the circumstances
(see Appendix A for details). We believe that our examination provides a reasonable basis for
our opinion.

In our opinion, because of the effects of the deficiencies discussed in the Results of Examination,
the Schedules of Budgeted & Reported Outlays by Assistance Agreement do not present fairly, in
all material respects, the allowable costs incurred in accordance with the terms and conditions of
the grants and applicable EPA regulations. Accordingly, we questioned $1,883,590 paid to the
Association because the Association’s financial management system was not adequate to account
for grant funds in accordance with Title 40 CFR Part 30.


/s/Keith Reichard
Office of Inspector General
U.S. Environmental Protection Agency
January 20, 2006




                                                4

               Schedules of Reported Outlays by Assistance Agreement, Questioned Costs, 

                                         and Amounts Due EPA 

                  Association of State and Interstate Water Pollution Control Agencies


                                                          Grant Number/Schedule Date
                        X82919901     X82973401     X783105101    CP83106901   CP83107001          X83164601     X83173901
Description             01/10/2006    01/10/2006    01/09/2006     01/18/2006   01/18/2006         01/18/2006    01/10/2006         Total
Personnel                   $44,352      $67,591         $17,246           $60,290      $99,048       $86,684       $26,251         $401,462
Fringe Benefits             $47,149      $23,726         $15,786           $26,779      $33,378       $23,480        $5,459         $175,757
Travel                       $5,568      $56,927          $4,106           $52,456     $139,507      $115,023         $827          $374,414
Printing and
Publications                    $0        $5,312              $0                $0           $0            $0            $0        $5,312
Other                        $107         $4,171              $0            $2,583       $5,097        $2,075            $0       $14,033
Supplies                        $0            $0          $1,853                $0           $0            $0        $6,956        $8,809
Contractual                 $1,125        $2,040        $286,966            $9,378     $122,186       $21,131      $218,279      $661,105
Indirect                   $36,264       $57,509         $36,690           $61,643      $99,649       $27,711       $94,870      $414,336
Total Incurred Costs      $134,565      $217,276        $362,647          $213,129     $498,865      $276,104      $352,642    $2,055,228
Less: Program
Income                           $0            $0             $0          ($2,268)     ($22,732)     ($29,256)           $0     ($54,256)
Reported Outlays
Note 1                    $134,565      $217,276        $362,647          $210,861     $476,133      $246,848      $352,642    $2,000,972
Total Cost
Questioned                $134,565      $217,276        $362,647          $210,861     $476,133      $246,848      $352,642    $2,000,972
EPA Payments
Note 2                    $125,000      $171,339        $360,000          $200,000     $440,000      $206,892      $380,359    $1,883,590
Amount Due EPA            $125,000      $171,339        $360,000          $200,000     $440,000      $206,892      $380,359    $1,883,590

Notes:

1.       The Association provided separate schedules of reported outlays for each grant as of the date specified in the schedule.

2.       The source for the EPA payments was from EPA’s Financial Data Warehouse.




                                                                     5

                             Results of Examination

Financial and Program Management, and Procurement Systems Did
Not Comply with Standards
The Association did not comply with the financial and program management standards and the
procurement standards promulgated in Title 40 CFR, Subchapter B, Part 30. Because the
Association did not to meet its fiduciary responsibilities under the regulations, the incurred costs
are not allowable.

When applying for grant assistance, the Association certified that it had the institutional,
managerial, and financial capability to ensure proper planning, management, and completion of
the project described in the grant application, and that it would comply with all applicable
requirements of all Federal laws, executive orders, regulations, and policies governing the grant.
EPA’s administrative grant regulations for nonprofit organizations are codified in Title 40 CFR,
Subchapter B, Part 30. Under the provisions of Title 40 CFR Part 30, the Association was
required to follow (1) the financial and program management standards codified in Title 40 CFR
30.21 through 30.28, and (2) the procurement standards codified in Title 40 CFR 30.41 through
30.48.

The Association’s financial and program management system (1) could not provide support for
any of its general journal entries; (2) included numerous duplicate recorded costs in its
accounting system; (3) could not always trace grant draws to the accounting records; (4) could
not always support labor charged to the EPA grants; (5) could not support the recorded indirect
costs; (6) did not record all of its program income in the general ledger; (7) did not have
adequate written procedures for determining reasonable, allocable, and allowable costs; (8) drew
EPA grant funds in excess of the funds needed; and (9) did not complete the required single
audits for fiscal years ended June 30, 2004, and June 30, 2005.

The Association’s procurement system did not comply with the procurement standards. The
Association awarded contracts to the America’s Clean Water Foundation, a related organization,
without competition or a cost analysis contrary to the requirements of Title 40 CFR 30.42 and
30.45.

The provisions of Title 40 CFR 30.62 provides that if a recipient does not comply with the terms
and conditions of an award, whether stated in a Federal statute, regulation, assurance,
application, or notice of award, EPA may disallow all or part of the cost of the activity or action
not in compliance. Because the Association did not adequately document its costs and did not
comply with the grant regulations, we questioned $1,883,590 paid to the Association. Details on
our findings follow.




                                                 6

Unsupported General Journal Entries

     The Association did not provide any documentation to support and sufficiently explain
     any of its general journal entries for any grants as required by Title 40 CFR 30.21. The
     provisions of Title 40 CFR 30.21 (b) (7) require the Association’s financial management
     system to have accounting records that are supported by source documentation. The
     Association used general journal entries to (1) record accruals such as payroll costs, (2)
     reverse posting entries, (3) correct errors made in recording cash receipts or expenditures,
     (4) allocate indirect costs, (5) record revenue, and (6) post transactions which were not
     recorded in the general ledger by other means. However, the Association could not
     provide supporting documentation to explain and support these general journal entries.

     For the audit period from July 1, 2001, through November 30, 2005, the Association
     could not support or justify any general journal entries. For example, during the fiscal
     year ended June 30, 2005, the Association made a general journal entry to record almost
     $255,000 in labor and fringe benefit costs incurred during a 5-month period beginning in
     January 2005. However, the Association could not provide the supporting documentation
     for the general journal entry. The Association’s Executive Director indicated that the
     accounting was not done timely because the Association’s Comptroller passed away
     during the first part of 2005. The Executive Director also could not explain why the
     supporting documentation for any of the general journal entries was not available. As a
     result, the Association did not have sufficient records to support the allowability of the
     incurred costs.

Duplicate Recorded Costs

     During the fiscal year ended June 30, 2005, the Association used two different databases
     to record grant expenditures in the general ledger. Based on our review of these
     databases, we noted numerous duplicate recorded costs. The provisions of Title 40 CFR
     30.21 require the Association to maintain a financial management system that is accurate,
     current, and complete, and provide for the effective control over and accountability for all
     funds. The Executive Director could not explain why the dual data bases were used, and
     why there were duplicate recorded costs. Because of the duplicate recorded costs, the
     Association’s financial management system was not accurate, and the incurred costs were
     incorrect and overstated.

Unsupported Grant Draws

     Contrary to the provisions of Title 40 CFR 30.21, the Association could not always show
     the receipt of Federal cash draws in the Association’s accounting records. The provisions
     of Title 40 CFR 30.21 require that the Association’s financial management system
     provide records that identify adequately the source and application of funds for federally-
     sponsored activities. For example, the Association could not show where almost
     $378,804 of Federal grant funds drawn under EPA grant X783173901 were recorded in
     the Association’s accounting records. The Executive Director could not explain the
     reason why grant draws were not properly recorded in the accounting system. Further, in



                                              7

        the fiscal year ended June 30, 2003,2 the Association’s single auditor reported as a
        material weakness that the Association did not have adequate procedures in place to
        accurately track and record grant balances.

Unsupported Labor Costs

        The Association could not support some of its labor costs. From July through October
        2004, the Association recorded labor charges twice in the accounting system. The
        duplicate labor transactions were caused by using two different databases to record grant
        expenditures in the general ledger.

        We also noted that for a 5-month period from January through May 2005, all labor costs
        were recorded in the accounting system using a single general journal entry. As stated
        above in the section entitled “Unsupported General Journal Entries,” the Association did
        not have any documentation to support and sufficiently explain the general journal entries
        for recorded labor.3 Further, in reviewing the labor charges, the Association could not
        provide all the required labor activity reports (timesheets). The provisions of Title 40
        CFR 30.21 (b) (7) require the Association’s financial management system to have
        accounting records that are supported by source documentation. The provisions of Title
        40 CFR 30.21 also require the Association to maintain a financial management system
        that is accurate, current, and complete, and provide for the effective control over and
        accountability for all funds. Because the Association’s accounting transactions were
        inaccurate and unsupported, the Association’s financial management system does not
        comply with the provisions of Title 40 CFR 30.21.

        While we cannot verify labor charges, the Association did require employees to prepare
        labor activity reports which met OMB labor documentation requirements. Therefore, if
        the Association is able to locate all of its timesheets, it may be able to reconstruct the
        allowable labor costs for each grant.

Unsupported Indirect Cost Rates

        The Association could not support the recorded indirect costs. The Association recorded
        indirect costs in the general ledger using general journal entries. As discussed above in
        the section entitled “Unsupported General Journal Entries,” the Association did not have
        any documentation to support and sufficiently explain its general journal entries for the
        indirect costs. Accordingly, the Association could not demonstrate how the indirect cost
        rate was calculated or what costs were included in the indirect rate.

        The Association did not prepare,4 submit, or receive approved final indirect cost rates
        from EPA for the fiscal years ended June 30, 2001, through June 30, 2005, as required by
        the applicable regulations. The provisions of Title 40 CFR 30.27 require non-profit

2
  The single audit report was submitted by the Association to the Federal Audit Clearinghouse on January 19, 2005. 

3
  The journal entries also included fringe benefits such as FICA and Medicare.

4
  On January 19, 2006, the Association emailed the OIG a worksheet of what appears to be the Association’s fiscal 

year 2003 provisional indirect rate. No explanation was provided with the spreadsheet. 



                                                         8

     organizations to follow the provisions of OMB Circular A-122 for determining allowable
     costs. OMB Circular A-122, Attachment A, subparagraph E (2), requires a nonprofit
     organization to submit an initial indirect cost proposal to the cognizant Federal agency no
     later than 3 months after the effective date of the award. The Circular also includes the
     requirement that organizations with previously negotiated indirect cost rates must submit
     a new indirect cost proposal to the cognizant agency within 6 months after the close of
     each fiscal year.

     On behalf of EPA, the U.S. Department of the Interior’s National Business Center
     (Center) negotiated provisional indirect rates for the years ended June 30, 2005, and June
     30, 2006. However, the Center informed the Association that a final rate for 2005 would
     not be negotiated until the Association submitted a revised proposal containing actual
     costs, based on, and reconciled to, financial statements that meet the requirements of the
     Single Audit Act of 1984. To date, the Single Audit for 2005 has not been completed,
     and the Association has not submitted a revised final indirect cost rate proposal for 2005
     to either EPA or the Center.

Under Reported Program Income

     The Association underreported program income under EPA grants CP83107001,
     X783164601, and CP83106901. The Association held various summits, forums, and
     other conferences, and earned program income from holding these meetings. The
     Association recorded $54,256 for program income under the three grants and reduced the
     grant costs by $54,256. However, the Association provided reports which show that the
     Association earned program income of at least $85,751 for the three grants. Thus, the
     Association’s general ledger does not accurately identify all of the program income
     earned. The Association did not have sufficient controls to ensure all the program
     income was properly recorded. By not properly recording the program income, the
     Association’s financial management system was not accurate, and the incurred costs may
     have been overstated for EPA grants CP83107001, X783164601, and CP83106901.

Written Accounting Procedures Did Not Meet Standards

     The Association did not have adequate written accounting procedures for identifying
     direct and indirect costs, and the basis for allocating such costs to projects, as required by
     the regulations. Title 40 CFR 30.21(b) (6) states that the Association’s financial
     management system shall provide written procedures for determining that costs are
     reasonable, allowable, and allocable in accordance with the Federal cost principles and
     the terms of the agreement.

     In developing written procedures, the Association needs to address the requirements of
     OMB Circular A-122. Specifically, the Association needs to address (1) the allocability
     of costs (Attachment A, paragraph A.4), (2) the three allocation methods authorized for
     indirect costs (Attachment A, paragraph D), (3) definition of direct and indirect costs
     (Attachment A, paragraphs B and C), and (4) the negotiation and approval of indirect cost
     rates (Attachment A, paragraph E).



                                               9

     As discussed above in the section entitled “Unsupported Indirect Costs Rates,” the
     Association did prepare provisional indirect rates for fiscal years ended June 30, 2005,
     and June 30, 2006; however, the Association could not explain, and did not have written
     accounting procedures to identify, what costs were actually included in the indirect cost
     rate calculations. Consequently, the Association could not demonstrate that the proposed
     indirect costs were allowable in accordance with OMB Circular A-122.

     For example, we noted that during the fiscal year ended June 30, 2005, the recipient
     accounted for membership services as an indirect cost in its accounting system. The
     provisions of OMB Circular A-122, Attachment A, subparagraph B (4), provides that the
     costs of activities performed primarily as a service to members, clients, or the general
     public when significant and necessary to the organization’s mission, must be treated as
     direct costs whether or not allowable and be allocated an equitable share of indirect costs.
     Since the Association could not explain to us what costs were included in the indirect
     cost rate calculation, we were unable to determine whether the Association correctly
     removed the membership services from the indirect cost pool and appropriately classified
     the membership services as direct costs. Without written policies and procedures to
     distinguish between direct and indirect expenses, the Association could not properly
     support either the direct or indirect costs reported for the EPA agreements.

Noncompliance with Cash Management Requirements

     For the year ended June 30, 2003, the Association’s single auditor reported that the
     Association did not comply with the Federal cash management requirements. The single
     auditor disclosed that the Association received advances in excess of expenditures
     totaling $141,289. The single auditor reported that the reason for the excess advances
     was that the Association did not properly record grant draws. In addition, cash receipts
     were incorrectly posted to the wrong grant in the accounting records, resulting in the
     balances of the grants being misstated.

     The provisions of Title 40 CFR 30.22 provide that payment methods shall minimize the
     time elapsing between the transfer of funds from the United States Treasury and the
     issuance or redemption of checks, warrants, or payment by the recipient. Cash advances
     shall be limited to the minimum amounts needed and be timed to be in accordance with
     the actual, immediate cash requirements of the recipient organization in carrying out the
     purpose of the approved program or project.




                                              10

Single Audits Not Completed

        The Association did not obtain single audits for the fiscal years ended June 30, 2004, and
        June 30, 2005, as required by Title 40 CFR 30.26. Title 40 CFR 30.26 provides that
        nonprofit organizations are subject to the audit requirements of OMB Circular A-133.
        OMB Circular A-133, Subpart B, requires nonfederal entities that expend $300,000
        ($500,000 for fiscal years ending after December 31, 2003) or more in a year in Federal
        awards to have a single audit conducted in accordance with applicable requirements of
        the Circular. The certified public accountant firm contracted to conduct the Association’s
        single audit for the fiscal years ended June 30, 2004, discontinued work after finding
        accounting irregularities. On July 18, 2005, after being notified of the accounting
        irregularities, EPA temporarily placed the Association on the “reimbursement” method of
        payment, as authorized by Title 40 CFR 30.14 and 30.22(h)(1). EPA took this action
        pending completion of corrective action to comply with Title 40 CFR Part 30.

Improper Procurement

        Under Grants X783105101 and X783173901, the Association awarded two sole source
        fixed price contracts to the America’s Clean Water Foundation, a related nonprofit
        organization.5 These contracts required the Foundation to provide “Circuit Rider”
        services to the Association. The first contract, under grant number X783105101, was for
        $284,514.6 The second contract, under grant X783173901, was for $368,524.7 Federal
        regulations (Title 40 CFR 30.42) provide that no employee, officer, or agent shall
        participate in the selection, award, or administration of a contract supported by Federal
        funds if a real or apparent conflict of interest would be involved. There was a conflict of
        interest since both the Association’s Executive Director and Deputy Director were paid
        employees of both organizations--the Association and the America’s Clean Water
        Foundation--and they both signed the contracts. In addition, the Association did not
        conduct a cost analysis of the two contracts in violation of Title 40 CFR 30.45. Without
        competition and the required cost analysis, there is no assurance that the prices paid were
        reasonable.

        The Association also entered into shared service agreements for financial and
        administrative support services. These agreements were fixed price and identified as
        “indirect expenses for ASWIPCA.” The value of these service agreements for a 2-year
        period ending June 30, 2005, was $152,099. These agreements also violate Title 40 CFR
        30.42 and 30.45.




5
  The two nonprofit organizations are related through common management, and share office space, the telephone

system, and office equipment.

6
  The Association’s Schedule of Budgeted & Reported Outlays by Assistance Agreement reported $308,224 for this 

contract. 

7
  The Association’s Schedule of Budgeted & Reported Outlays by Assistance Agreement reported $245,682 for this 

contract. 



                                                       11

                                Recommendations

We recommend that the Director for the Grants Administration Division:

       1. 	 Recover $1,883,590 unless the Association is able to:

          •	 Reconstruct its accounting records and exclude all duplicate recorded costs from
             its accounting records.
          •	 Provide explanations and support for all general journal entries.
          •	 Identify and record all grant draws and program income in its accounting system.
          •	 Ensure that all transactions are supported by adequate source documentation
             including labor activity reports.
          •	 Prepare and submit fringe and indirect cost rate proposals for fiscal years 2001
             through 2005 in accordance with OMB Circular A-122.
          •	 Develop written procedures to determine reasonable, allowable, and allocable
             costs in accordance with OMB Circular A-122.
          •	 Submit interim or final financial status reports for all seven grants included in this
             report. When submitting these status reports, include a schedule of reported
             outlays for each grant similar to those included in this report.

       2. 	 Disallow contract costs procured in violation of Title 40 CFR 30.42 and 30.45.

       3. 	 Rescind provisional indirect cost rates for fiscal years ended June 30, 2005, and
            June 30, 2006.

       4. 	 Stop work on all active grants and do not award any new grants until EPA has
            assurances that the Association meets minimum financial management requirements.

       5. 	 Keep the Association on the reimbursement payment method until the Association
            meets minimum financial management requirements, settles current Federal
            liabilities, and repays all disallowed costs.

       6. 	 Require the Association to comply with single audit requirements for fiscal years
            ended June 30, 2004, and June 30, 2005.




                                                12

                                         Status of Recommendations and
                                            Potential Monetary Benefits
                                                                                                                                  POTENTIAL MONETARY
                                                      RECOMMENDATIONS                                                              BENEFITS (in $000s)

                                                                                                                  Planned
    Rec.    Page                                                                                                 Completion        Incurred      Agreed To
    No.      No.                           Subject                         Status1        Action Official           Date           Amount         Amount

     1        12    Recover $1,883,590 unless the Association is able        U           Director, Grants                           $1,884
                    to (a) reconstruct its accounting records and                      Administration Division
                    exclude duplicate recorded costs, (b) provide
                    explanation and support for all general journal
                    entries, (c) identify and record all grant draws and
                    program income in its accounting system, (d)
                    ensure that all transactions are supported by
                    adequate documentation including labor activity
                    reports, (e) prepare and submit fringe and indirect
                    cost rate proposals for fiscal years 2001 - 2005 in
                    accordance with OMB Circular A-122, (f) develop
                    written procedures to determine reasonable,
                    allowable, and allocable costs in accordance with
                    OMB Circular A-122, and (g) submit interim and
                    final financial status reports, including a schedule
                    of reported outlays for each grant similar to those
                    included in this report.

     2        12    Disallow contract costs procured in violation of         U           Director, Grants                             (a)
                    40 CFR 30.42 and 30.45.                                            Administration Division

     3        12    Rescind provisional indirect cost rates for fiscal       U           Director, Grants                             (a)
                    years ended June 30, 2005, and June 30, 2006.                      Administration Division

     4        12    Stop work on all active grants and do not award          U           Director, Grants
                    any new grants until EPA has assurances that the                   Administration Division
                    Association meets minimum financial management
                    requirements.

     5        12    Keep the Association on the reimbursement                U           Director, Grants
                    payment method until the Association meets                         Administration Division
                    minimum financial management requirements,
                    settles current Federal liabilities, and repays all
                    disallowed costs.

     6        12    Require the Association to comply with single audit      U           Director, Grants
                    requirements for fiscal years ended June 30, 2004,                 Administration Division
                    and June 30, 2005.

(a) The values for the questioned contract and indirect costs are $661,105 and $89,515, respectively, and are included in recommendation 1 to recover
$1,883,590.

1    O = recommendation is open with agreed-to corrective actions pending;

     C = recommendation is closed with all agreed-to actions completed;

     U = recommendation is undecided with resolution efforts in progress 





                                                                                 13

                                                             Schedule 1 

                                                  Comparison of Grant Payments with 

                                                           Incurred Costs


                                                                Cash Payments by Grant

    Description    X82919901        X82973401        X783105101         CP83106901 CP83107001                 X83164601    X83173901      Total
    Reported
    Outlays8          $134,565         $217,276           $362,647          $210,861           $476,133         $246,848    $352,642    $2,000,972
    EPA Grant
    Amount            $125,000         $240,000           $360,000          $200,000           $440,000         $206,892    $448,804    $2,020,696
    EPA Cash
    Payments9         $125,000         $171,339           $360,000          $200,000           $440,000         $206,892    $380,359    $1,883,590
    Date of Last
    Payment         07/28/2003       10/12/2005        05/24/2004         05/05/2004         05/12/2005       11/15/2004   11/01/2005
    Excess
    Cash
    Payments10               $0                $0                 $0                 $0                $0            $0       $27,717     $27,717
    Cost
    Overruns11           $9,565                $0            $2,647           $10,861           $36,133          $39,956          $0      $99,162
    Funds Not
    Yet Draw12             $0          $68,661                 $0                $0                 $0                $0     $68,445     $137,106
                   07/01/2001       04/01/2002        05/15/2003        07/01/2003         06/01/2003         02/19/2004   05/15/2004
    Grant Period       to               to                to                 to                to                 to           to
                   10/01/2003       03/31/2006        05/14/2006        06/30/20005        05/30/2006         08/19/2005   05/14/2006




8
  The Association provided separate schedules of reported outlays for each grant as summarized on page 5. 

9
  Source: EPA’s Financial Data Warehouse. 

10
   The difference between the reported outlays and the EPA cash payments. 

11
   The difference between reported outlays and the EPA grant amount. 

12
   Amount of funds remaining per EPA’s Financial Data Warehouse. 



                                                                              14
                                                                                    Appendix A

                           Scope and Methodology

We performed our examination in accordance with the Government Auditing Standards, issued
by the Comptroller General of the United States, and the attestation standards established by the
American Institute of Certified Public Accountants. We also followed the guidelines and
procedures established in the Office of Inspector General Project Management Handbook, dated
January 14, 2005.

We conducted this examination to express an opinion on the incurred costs, and determine
whether the recipient complied with all applicable laws and regulations, as well as any special
requirements under the agreement. We conducted our field work from January 9, 2006, through
January 20, 2006.

In conducting our examination, we performed the following procedures:

   •	 We reviewed grant and project files to obtain background information on the Association
      and the agreement.

   •	 We interviewed recipient personnel to understand the accounting system and the 

      applicable internal controls as they relate to the reported outlays. 


   •	 We reviewed the most recent single audit reports to identify issues which may impact our
      examination.

   •	 We reviewed the recipient’s internal controls specifically related to our objectives.

   •	 We performed tests of the internal controls to determine whether they were in place and
      operating effectively.

We examined the incurred costs on a test basis to determine whether the costs were adequately
supported and eligible for reimbursement under the terms and conditions of the agreements and
Federal regulations and cost principles.




                                               15 

                                                                             Appendix B

           Recipient Response and OIG Comments

June 29, 2006


Mr. Michael A. Rickey
Director, Assistance Agreement Audits
U.S. Environmental Protection Agency
Office of the Inspector General
77 West Jackson Blvd
Chicago, IL 60604-3507

Re:   ASIWPCA Response to Office of Inspector General Draft Attestation Report
      Draft Attestation Report on EPA Grants X82919901, X82973401, X783105101,
      CP83106901, CP83107001, X783164601, and X783173901
      Report No. 2006-00620

Dear Mr. Rickey:

The Association of State and Interstate Water Pollution Control Administrators
(ASIWPCA) appreciates the opportunity to respond to the Office of Inspector General’s
(OIG) draft audit report entitled, Association of State and Interstate Water Pollution
Control Administrators Incurred Costs For Seven EPA Assistance Agreements (draft
report) dated April 13, 2006.

Please find our detailed response attached which addresses and clarifies the
information in OIG’s draft report. Although we understand that not all of the issues
raised in the draft report will be resolved before becoming final, the ASIWPCA Board
asks that the OIG will reconsider aspects of its opinion based on the response provided.

Specifically, the Association is requesting that incurred costs identified as questioned
costs by OIG in the draft report be deemed unresolved, until such time as GAD has
been given the chance to review the entire record. The Association also requests that
the final report be tempered with an acknowledgement of the limitations of a general
ledger for financial analysis when embezzlement has occurred.

For those areas where OIG has identified weaknesses, ASIWPCA has revised its
procedures and systems to ensure current and future compliance with Federal
regulations. These have also been identified in the attached detailed response.
Again, thank you for the opportunity to reply to these findings.




                                            16 

Sincerely,



Karen Gautreaux
ASIWPCA President and
Deputy Secretary, Louisiana DEQ



cc: 	   ASIWPCA Board of Directors
        Linda Eichmiller, ASIWPCA
        Luis Luna, EPA
        Howard Corcoran, EPA
        Richard Kuhlman, EPA
        Michael Mason, EPA
        Bill Roderick, EPA
        Mark Bialek, EPA
        Melissa Heist, EPA
        Eileen McMahon, EPA
        John Manibusan, EPA
        Ben Grumbles, EPA
        James Hanlon, EPA


Enclosure




                                     17
                                 ASIWPCA RESPONSE

                                Draft Attestation Report: 

        Association of State & Interstate Water Pollution Control Administrators 

                  Incurred Costs for Seven USEPA Assistant Grants 


Summary

The Association of State & Interstate Water Pollution Control Administrators
(Association) is hopeful that the Office of Inspector General (OIG) will revise its
recommendation to recover the entire amount of grant monies utilized by the
Association to complete the work on seven grants. OIG has identified several areas
where the Association can improve its processes and procedures. Many improvements
have already been implemented and we will continue to work with the Office of Grants &
Disbarment (GAD) to implement and address any remaining concerns.

We have made great strides in mitigating the damage caused by the bookkeeper who
embezzled Association funds. We are well along in our effort to rebuild all direct
expenses for USEPA grants with backup that provides much greater detail than the
general journal entries. We have removed the duplicate entries caused by the use of
two data systems. We are working to identify and record all grant draws and other
program income. All of our program activity reports (timesheets) back to 2002 have
been consolidated and the data entered into spreadsheets. We are working with GAD to
determine the most cost effective way to deal with the final indirect cost rate proposals.
Once our financial rebuild is completed we will be able to provide final financial status
reports for all seven grants.

The Association recognizes the report raises many legitimate issues and would like to
work with the Agency to put into place and implement a corrective action plan. Since
discovering the embezzlement, the Association has:

   ¾	 Hired an accounting firm with a strong background in nonprofit organizations and
      USEPA grants
   ¾	 Reorganized fiscal paper files which the bookkeeper intentionally put into 

      disarray 

   ¾	 Secured provisional indirect cost rates for FY2005 and FY2006
   ¾	 Started preparations for final indirect cost rate for 05/06
   ¾	 Continued to rebuild the Association’s electronic accounting system
   ¾	 Rebuilt the Payroll records for FY2002-2006
   ¾	 Organized all fiscal supporting documentation for the original 4 grants identified
      by OIG as subject to review. The scope will be expanded to include all 7 grants
      reviewed in this report.




                                            18 

   ¾	 Updated the Association’s personnel and fiscal operation manuals as requested
      by USEPA
   ¾	 Confirmed with USEPA that all prior year Single Audit issues have been 

      resolved. 

   ¾	 Documented and summarized all program income for each grant

The accounting system and the related software have been “real time” for an entire year
since July 1, 2005. Accruals are made when they occur, receipts are processed as they
are received, and checks are written within the system. Grant expenditures are tracked
against the grant or cooperative agreement and against the remaining grant balance to
ensure propriety and timeliness of incurring the costs and billing the cost to the Federal
government. The books are closed within 10 days of the subsequent month with a
reconciliation prepared for the cash and other major accounts and the subsidiary
ledgers. Checks and balances are maintained between bookkeeping staff and the on-
site out sourced accounting firm that provide oversight.

The Association understands the difficulty that the OIG Inspectors had in reviewing the
financial status of the organization. The general ledger (GL) had numerous errors,
poorly supported general journal entries, and for a short time period contained
redundant transactions. As such, it is clearly within the purview of the Office of Inspector
General to recommend disallowance of all incurred costs in situations where a grantee
does not comply with financial, program management and procurement standards as
outlined in the federal regulations.

The Association is instead requesting that these costs be deemed unresolved, until
such time as GAD has been given the chance to review the entire record. The
Association also requests that the final report and analysis be tempered with an
acknowledgement of the limited utility of the general ledger available at the time of
review.

       OIG Comment: Deeming the questioned costs as unresolved would be
       inconsistent with the OIG’s long-standing reporting practice and the Inspector
       General Act of 1978. The OIG’s opinion is based on the condition of the records,
       observations and results of analysis at the time field work was conducted. This
       basis is consistent with the requirements of the Government Auditing Standards.

       Questioned costs are defined in the report as costs that are (1) contrary to a
       provision of a law, regulation, agreement, or other documents governing the
       expenditures of funds, or (2) not supported by adequate documentation. The
       action official for this report will resolve the report’s finings in accordance with
       EPA’s Audit Management Process. If the action official decides to provide a
       supplementary analysis of the findings and recommendations, the action official
       will inform the recipient of the specific information or documentation that will be
       needed in support of the findings. Any disputes with the action official’s decision
       will be resolved in accordance with Title 40 CFR 30.63.



                                            19 

           We agree that the general ledger had limited utility at the time of our review.
           However, the limited use of the general ledger did not relieve the Association of
           its responsibility for maintaining an adequate financial management system as
           required by Title 40 CFR 30.21.

1.         Unsupported General Journal Entries

           The Association recognizes this was a problem with general journal entries which
           made it difficult to use the general ledger (GL) and validate the entries with
           supporting documentation. However, we are concerned that the scope of this
           issue was mischaracterized by stating that the Association “could not provide
           support for any of its general journal entries” [emphasis added]. This supporting
           documentation was available but because the investigators did not request these
           materials, we did not think to offer them at that time. For example, support for
           FY2005 general journal entries were all kept in a single binder in the
           bookkeeping office and to our knowledge this was not requested by the
           investigators during the review process.

           The specific example provided in the draft report represents another instance
           where supporting documentation was actually available during the review. The
           $255,000.00 general journal entry for labor and fringe benefit costs incurred
           during a 5-month period had supporting documentation behind it. Our new
           accounting firm, Raffa & Associates was responsible for this particular general
           journal entry and did maintain the appropriate materials as supporting
           documentation. (See Appendix 113) Behind these spreadsheet schedules were all
           of the individual timesheets, payroll documents, and fringe benefit vendor files.
           Due to the chaos caused by the former bookkeeper and the need to deal with the
           embezzlement, the journal entry was believed by Raffa to be the best approach
           under the circumstances.

           For many general journal entries in the GL the documentation is available.
           However, we recognize general journal entries can be a potential vulnerability in
           an accounting system. As we rebuild our financial records, the use of general
           journal entries will be limited, and proper source documentation will be
           scrupulously retained.

                    OIG Comment: According to notes in our audit work papers, the auditors
                    (not investigators) made several requests to the Association’s Executive
                    Director, and the accounting firm’s personnel for the documentation
                    needed to support all the general journal entries. The supporting
                    documentation was not provided, including the $255,000 general journal
                    entry prepared by the accounting firm.

                    The support for the journal entries will be necessary to support the
                    reconstruction and revised claims to EPA.
13
     The appendices are available from the OIG upon request.


                                                         20 

2.   Duplicated Recorded Costs

     During our in-house review, the Inspector was given a ledger for FY2004 which
     continued past June 30 and ran to the first week of November. The Inspector
     was also given the FY2005 ledger which started July 1, 2004. The net effect was
     that from July 2004 to November 2004 there were two data systems or ledgers
     tracking our financial status. Although our accountants did not know at that time
     which of the two systems more accurately represented those months, they did
     explain to the Inspector our intent to rebuild our financial records using the more
     accurate of the two sets of data.

     Since that time, we have initiated action to go back and document all direct
     expenditures for each grant and put them in spreadsheet schedules, which will
     eliminate all issues with duplicate entries per OIG’s recommendation.

           OIG Comment: The Association will need to revise its Schedules of
           Budgeted & Reported Outlays by Assistance Agreement that were
           incorrect and overstated due to the duplicate recorded costs. The
           Association will also need to revise the outlays reported on the Financial
           Status Reports.

3.   Unsupported Grant Draws

     The Association recognizes that this was an issue for our grants. Although we
     have not yet determined whether this was an artifact of the embezzlement or not,
     we do understand the importance of properly tracking this information. As part of
     the rebuild, Federal cash draws are now and will be appropriately documented in
     the future to comply with Title 40 CFR 30.21. This issue is also addressed in the
     revised ASIWPCA Accounting Policies Manual.

4.   Unsupported Labor Costs

     As was noted in the duplicate transaction section, there were two databases
     tracking our income and expenses during the time period of July 2004 to
     November 2004. This was fully disclosed to the Inspectors at the time of the
     review. A decision had not been made by our accountants as to which database
     represented the correct information. The Inspectors were informed that as part of
     the rebuild this could be determined and all redundant entries for those months
     would be eliminated.

     Also noted in general journal entry section above, recorded in the GL is general
     journal entry for $255,000.00 representing 5 months of labor and fringe. Backup
     support documentation was available at the time and has been provided as apart
     of this response. The organization’s bookkeeper passed away in March of 2005,
     after having been hospitalized off and on for the three months prior. In June of



                                          21 

     2005 it was discovered that the labor costs for the prior months had not been
     entered into the financial system and the new accounting firm determined that a
     general journal entry was appropriate under the circumstances.

     We have traditionally been very diligent about tracking our time in labor activity
     reports. In the past, both the employee and supervisor were required to sign off
     on the paper copies. Almost every single signed paper copy for the last 5 years
     has been found to reconstruct our financial records and all data from these labor
     activity reports have been entered into spreadsheet schedules which have been
     shared with GAD through the reimbursement process. (See Appendix 2)

           OIG Comment: The supporting documentation for the $255,000 journal
           entry is not sufficient to fully support the entry. The assumptions and
           methodology used to determine the labor allocation and associated costs
           are not clear. Further, the hours on the schedules supporting the journal
           entry vary somewhat from the hours shown in Appendix 2 of the
           Association’s response.

5.   Unsupported Indirect Cost Rates

     As was noted in the section above, in the future, the Association will avoid using
     general journal entries for direct or indirect expenses unless absolutely
     necessary and will retain all appropriate supporting documentation.

     The Association has made a good faith effort to properly document indirect cost
     rates in compliance with the USEPA policy. There appeared to be some
     inconsistencies between the USEPA policy and the Office of Management and
     Budget (OMB) circulars regarding indirect cost documentation. Subsequently,
     the USEPA and OMB policies were amended to reconcile these apparent
     inconsistencies. Because the Association relied on and complied with the
     original USEPA policy, any failure to submit annual indirect cost rate proposals to
     USEPA was unintended. Thus, the Association should not be penalized for the
     previously-submitted documentation.

     The Association acknowledges an understanding of the OMB Circular A-122,
     which requires the recipient to submit new indirect cost proposals to the
     cognizant agency within six months after the close of each fiscal year. The
     Association further understands USEPA cannot accept the reported outlays for
     indirect costs until we resubmit final indirect cost rate proposals for all
     appropriate prior years. Our efforts to do so are now underway with GAD to get
     final rates for FY2005 and FY2006.

           OIG Comment: EPA’s policy to allow the recipient to retain the indirect
           cost rate proposal(s) on file did not comply with OMB Circular A-122,
           Attachment A, subparagraph E (2) and has been rescinded.
           Nevertheless, both EPA and OMB policies required the Association to



                                          22 

                  prepare an indirect cost rate proposal. The Association did not provide
                  any evidence that it prepared or maintained such documents.
                  Accordingly, all indirect costs remain unsupported until the Association
                  submits and receives approved indirect rates for all years beginning with
                  the fiscal year ended June 30, 2001.

6.       Underreported Program Income

         The Association agrees that this was an issue with the GL. However, it should be
         noted that ASIWPCA’s program staff tracked and documented this information in
         detail on spreadsheets (by event, participant and payment method). The
         methodology was explained to the investigators and those records were available
         for review. To the extent the GL differs from those records, we recognize
         changes must be made as part of the rebuild.

                  OIG Comments: The Association may have more program income than is
                  supported by supplemental records. In reviewing the general ledger we
                  identified program income from the CAFO roundtables/summits meeting;
                  however, there were no Regonline14 reports provided for that meeting.
                  Therefore, the program income may be greater than the amount identified
                  in the supplemental records. By not properly recording and reconciling the
                  program income, the Association’s financial management system was not
                  accurate, and the incurred costs may have been overstated for EPA
                  grants CP83107001, X783164601, and CP83106901.

7.       Inadequate Written Accounting Procedures

         The Association agrees there were deficiencies in our written accounting
         procedures. Further, where there may not have been written deficiencies, there
         were areas of concern relating to implementation.

         We request that the OIG review the Association’s Accounting Policies Manual,
         dated August 2005, prepared for us by Raffa & Associates. If upon further
         review, more details must be provided, the Association is very willing as part of a
         corrective action plan, to provide more information in those areas. Several layers
         of checks and balances have been instituted to ensure implementation.

         As part of our provisional indirect cost rate application, the Association now
         provides detailed descriptions of any and all assumptions made to develop the
         rate. Although in the past our provisional rate calculations included member
         services, for all current and future applications these costs will be treated as
         direct costs. The Association will further ensure that EPA is provided all relevant
         materials to support rate calculations and that appropriate written procedures are


14
  Online event registration software and services for meetings, conferences, training classes, and other corporate
functions.


                                                         23 

      in place to provide explanation to EPA regarding our treatment of direct and
      indirect expenses.

             OIG Comment: The Association did not provide us with the Accounting
             Policies Manual either during our field work or in response to this report.
             Accordingly, we cannot comment on the adequacy of the procedures.

8.    Noncompliance with Federal Cash Management Requirements

      The Association agrees that this was an ongoing problem that comes up in the A
      133 Single Audits Reports. Although no Federal funds have been identified as
      having been stolen, the report provides insight into the methodology of the
      embezzler to use different funds to back pay other expenses. Procedures with
      checks and balances have been put into place to assure this will not be a
      problem in the future.

9.    Single Audits Not Completed

      As was noted above, the FY2003 Single Audit Report was not finalized until June
      24, 2004. In an attempt to go forward with the FY2004 Single Audit, Raffa &
      Associates discovered the embezzlement and the Association agreed that the
      audit should be put on hold until we could place confidence in our financial
      records. The Association is aware that under OMB Circular A-133, nonfederal
      entities that expend $300,000 ($500,000 for fiscal years ending after December
      31, 2003) or more in a year in Federal awards must have a Single Audit
      conducted. We are currently rebuilding our records and will work with our
      accountants and the Office of Grants to determine the appropriate timing and
      solution for this issue.

      The OIG draft report indicates that issues identified in the FY2003 Single Audit
      have not been addressed and resolved. ASIWPCA has since submitted to the
      agency a summary of actions that have been completed to resolve the issues
      identified in that audit (See Appendix 3). Those measures are in place and
      operational.

10.   Improper Procurement

      It is agreed that in situations where two organizations are related through
      common management, share office space, the telephone system, office
      equipment, etc., that greater scrutiny must exist to avoid a conflict of interest for
      decisions to spend Federal grant dollars on contractual services inter-
      organizationally. The specific issues raised in the OIG draft report focused on the
      TMDL Circuit Rider Grants and the Shared Services Agreement with America’s
      Clean Water Foundation (ACWF) as well as several other smaller contracts.




                                            24 

The Association believes that these issues can be worked out with USEPA
upon further discussion and review of ASIWPCA records. For instance we
believe that information can be provided and presented by ASIWPCA that the
rates from most work were at or below market rates and that the work was
effectively completed. We look forward to discussing this further with USEPA.




                                  25 

                                                                            Appendix C

                                       Distribution

Office of the Administrator
Director, Grants Administration Division (Action Official)
       (responsible for report distribution to recipient)
Director, Office of Grants and Debarment
Audit Followup Coordinator, Office of Grants and Debarment
Assistant Administrator for Water
Assistant Administrator for Air and Radiation
Agency Followup Official (the CFO)
Agency Followup Coordinator
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
General Counsel
Acting Inspector General




                                             26 

